                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                              OFFICE OF INVESTIGATIONS

                                                    CLOSEOUT MEMORANDUM

11   Case Number: 108020014
                                                                                               II             Page 1 of 1



           NSF identified inappropriate material1 on the R drive of an NSF employee2. The employee was
           interviewed and acknowledged having visited inappropriate adult web sites containing pornographic
           material from dis NSF computer and used peer-to-peer file sharing software. A report of
           investigation was submitted to the appropriate NSF official3 for action4. The employee was
           suspended for 10-days in this matter5.

           Accordingly, this matter is closed.




           ' OIG's review of the employee's R drive identified: 5,297 image and video files of which over 360 were
           inappropriate image and video files containing sexual content that included: 7 video files running between 20
           seconds and 30 minutes in length each, over 350 image files (.gif, jpg., and .bmp extension), and 5 Powerpoint
           slideshows containine ~ h o t o sof nude women.




           ' See Tab 2 - Copy of Notice of Decision on Proposed Suspension, dated August 8,2008.


 NSF OIG Form 2 (1 1/02)
                                        NATIONAL SCIENCE FOUNL .(I0
                                                                                         TA6 5
                                              4201 Wilson Boulevard          .   .
                                            ARLMGTON, VIRGINIA 22230   .




        OFFICE OF                              MAR 3 1 2008
    INSPECTOR GENERAL




       Confidential     .   .   '                I




             To:




         From:.

       Subject:             Investigative Report (Case # 108020014)

       The attached Investigative Report concerns an NSF employee employed at        a




                        We have determined that the employee has violated NSF policies
       regarding the personal use of NSF's communication resources by using an NSF computer
       to visit inappropriate web sites, view various images, photographs, and videos of a sexual   \
       nature and maintain these on his NSF R drive. During our investigation, the employee
       admitted to receiving inappropriate material fi-om iiiends (non-NSF sources), visiting
       inappropriate websites, and saving inappropriate material onto his official government
       computer.

       We are referring this matter to you so that appropriate action can be taken by the
       Foundation. Please advise me by April 25, 2008, of the actions taken regarding the
       recommendations contained in our report.



.      Attachment   ;




       cc:
         National Science Foundation
         Office of Inspector General




                          Confidential
                      Investigation Report
                    Case Number 1-08020014
                                  28 March 2008


     This Confidential Iilvestigation Report is the property of the NSF OIG and may be disclosed outside
        NSF only by OIG under the Freedom of Information and Privacy Acts, 5 U.S.C. $$552,552a.
I'
                                                                                       NSF 01G For111 22b ( I 1/06)
                                                  Summary

This investigation involves a National Science Foundation (NSF) employee1, who acknowledged
to OIG, that his computer contained inappropriate material. The employee's network drive (R
drive)2 contained image files and slideshows that included photos of nude women, and video
clips containing sexual content. The employee's website favorites contained links to sites with
sexually descriptive titles as well. He stated that he received the inappropriate files and links
through emails from fnends who work outside of NSF. The NSF Office of Inspector General
(OIG) identified a potential violation of current IVSF Policy regarding Personal Use of NSF's
Technology and Communication Resources contained in NSF BULLETIN 04-1 1.

                                             OIG Investigation

NSF identified inappropriate material on the R drive of an NSF employee. OIG completed a
review of the employee's R drive and identified 5,297 image and video files of which over 360
were ipappropriate image and video files containing sexual content that included: 7 video files
running between 20 seconds and 30 minutes in length each, over 350 image files (.gif, jpg., and
.bmp extension), and 5 Powerpoint slideshows containing photos of nude women. The files had
creation and access dates dating between July and November 2007. The majority of the files
were created on November 23,2007. A review of the website favorites files indicated that many
websites viewed contained sexually descriptive site namesltitles. The website favorites files had
creation dates dating between March 2002 through August 2007.1

Pursuant to NSF Policy regarding Personal Use of NSF's Technology and Communication
Resources contained in NSF Bulletin 04-11 ("NSF's Personal Use Policy"), NSF employees are
authorized to use NSF technology and communication resources for occasional personal use.
However, 'this policy creates express limitations on personal use, citing the ~ederalCIO
Council's 1999 Model PolicyIGuidance on "Limited Personal Use," ("Model Policy"), for
examples of inappropriate uses.

According to Section IV of the Model Policy:

"Employees are expected to conduct themselves professionally in the workplace and to refrain
fkom using government office equipment for activities that are inappropriate. Misuse o r
inappropriate use of government office equipment includes.. ..Using government office
equipment for activities that are illegal, inappropriate, or offensive to fellow employees or the
public.. . and.. . the creation, download, viewing, storage, copying, or transmission of sexually
explicit or sexually oriented materials."




 T h e R drive is a designated network drive assigned'to each NSF employeeluser for individual
 uselstorage of data and. accessible only by the individual employeeluser andlor OIRMIDIS teclmical staff.
  See Tab # 9 for sample list of website links saved under "Favorites" and sample list of image
 filenames. Note: Sexually explicit material found on the employee's R drive was not provided in this report
 but is available for review upon request.
Furthermore, according to NSF's IT Security "User Responsibilities-Rules of Behavior", an NSF                            1
user agrees to comply with the rules, one of which states the following:

         "...I understand that NSF IT resources, including e-mail accounts, are for authorized
         Government use only and in accordance with NSF policy, any activity that would
         discredit NSF, including seeking, transmitting, collecting, or storing defamatory,
         discriminatory, obscene, harassing, or intimidating messages or material is n o t
         permitted."

The examination of the R drive files determined that child pornography did not exist on t h e
drive. The review determined that all of the video and photo image files identified contained
subjects that were adults. There were no indications that any of the images or videos contained
any underage subjects. Based on this finding it was determined that due to the lack of a n y
criminal violations, this matter would be handled administratively and not require a referral to
the United States Attorney's Office for its review.

The employee was interviewed4by representatives fiom NSF's Office of Inspector General in
reference to the files found on the computer. Prior to the interview the OIG provided the
employee with a copy of his Weingarten rights and a Garrity warningS which were read and
signed by the employee. During the interview the employee acknowledged having obtained t h e                             ,
files in question and saveh the pornographic material on his computer. He was shown a list of
the files found on his computer and acknowledged that these were indeed files he viewed. H e
stated that he received the weblinks and files fiom friends via email, and did not use any
s o h a r e to download the files. He explained that he saved them to his R drive with the intention
of deleting them later but had not remembered to do so. He stated that he understood that these
activities were inappropriate at work. The employee acknowledged that he was familiar with
NSF's personal use policy for use of government equipment and that he has participated in the
Agency's Computer Security raini in^.^ The employee voluntarily provided a written affidavit7
Following the interview, the employee sent an email to OIG stating that he had deleted the
inappropriate material from his R drive.* OIG verified that the inappropriate material w a s
removed.

                                                    OIG Analysis

Based on the information contained in this report and the employee's own admission, O I G
concludes that the employee utilized his NSF computer to visit inappropriate .web sites, view
various images, photographs, and videos of a sexual nature and maintain these on his NSF R
drive. The employee stated that he knew this material was against NSF rules, and deleted t h e
inappropriate material following his interview with OIG. The employee admitted to having
received, viewed, and stored the sexually explicit material, which he stated he received from

4
  Tab # I - hllemorandum of Investigation (MOI) - Interview of the employee, dated February 2 1,2008.
5
  Tab #2 - Garrity Warning signed by the employee. This written warning advised the e~~iployee        that lie did not
   have to reveal information that might incriminate him (i,e. result in a critninal action against him).
6
  'Tab #5 - Eniail listing dates the employee completed Colllputer Security Training.
  Tab #3 - Affidavit written by         , dated February 21, 2008.
' Tab #4 - Ernail sent by the employee, dated February 2 1, 2008.
                                                                                                         '
fi-iends and had intended on deleting. He M e r stated that "most of the content in question have       1(
not been viewed in years."9 OIG forensic analysis determined that he placed many of the
inappropriate websites in a file marked "Favorites" and the file names had sexually descriptive
site narnesltitles with creation dates dating back to March 2002 up through August 2007.
Furthermore, many of the sexually explicit files had creation dates between July and November
2007.

                                               OIG Conclusions                                               ~
By accessing inappropriate web sites and maintaining inappropriate files on his NSF computer
such as pornographic photos and videos, the employee knowingly violated policies contained in
NSF BULLETIN 04- 1 1, Personal Use of NSF's Technology and Communication Resources,
which .states; "Employees may make use of the Internet and electronic mail for matters that are
not official business provided that the following criteria are met: (I) the use does not result in an
additional charge to the government, J2) the use is not offensive to co-workers or the public
{such as sexually explicit or otherwise inappropriate web sites), and (3) the use is not for
illegal activities (such as gambling or the distribution of copyrighted materialslmedia through
illegal file sharing{peer to peer) or otherwise )." (Emphasis added)

By downloading and maintaining sexually explicit material on his NSF computer, the employee
violated NSF's Personal Use Policy by engaging in an inappropriate use expressly cited in the
Model Policy adopted and incorporated by reference, and NSF's IT Security User
Responsibilities-Rules of Behavior.

                                           OIG Recommendations

In reference to the conclusions outlined above, we recommend that the National Science
Foundation proceed with administrative actions that are appropriate and consistent with previous
similar incidents.




9
    Tab 83 - Memorandum of Investigation (MOI) - Interview of the employee, dated February 2 1, 2008.
                                                                     j,
                                                        Q
                                   National Science Fob.. ation
                                   4201 Wilson Boulevard
                                                                 ;




                                   Arlington, Virginia 22230



Date:                  June 25,2008
To:


From:                  -
                                      -

Subject:               Notice of Proposal to Suspend
                       Misuse of Computer

This is notice that I am proposing to suspend you from duty without pay for ten (10)
calendar days from your : -                                           The reason for this
proposed suspension is Misuse of your Government Computer. The relevant facts are as
follows:

The O f f i i of the Inspector General (OIG) conducting proadive investigative reviews,
i d e n t i i drives used by you as housing large media files. Based on findings during the
review, the OIG issued Investigative Report Case Number 108020014on March 31,2008.
The report concerned inappropriate material on the R: drive of your government computer.
The investigation revealed that your R: drive contained 5,297 image and video files of which
over 360 were inappropriate image and video files containing sexual content including: 7
video files running between 20 seconds and 30 minutes in length, over 350 image files, and
5 Powerpoint slideshows containing photos of nude women. The files had creation and
access dates between July and November 2007, many being accessed or downloaded on
November 23,2007.

You were interviewed by :                                on February 21,2008. Prior to the
interview, you were given a copy of your Weingarten rights and a Garrity warning which you
read and signed. In the intetview, you were shown a listing of all items stored on your
R:drive containing image and video files.

The following list ,some, but not all items found on your R:drive:
Big Booty Sites and DVDs www. biqbootyfemales.bloqs~ot.com


Big Phat Asses on Home Video http://searchportal.information.com/


Big Booty Beauty www.biqbootybeautv.com/


Booty Shaker.com- We bring the strip club to the house www.bootvshaker.com
Celebrity Beauties Hall of Fame www.celebritvbeauties.net

Dawg Films www.dawcrfilms.com


DCash Girls www.dcashqirls.com


Ethnic Angels www.ethnicanaels.net


Exploited Black Teens www.exr>loitedblackteens.com


Nude Black Dancers http://nudeblackdancers.com

The Video files were video clips titled:

Double Dipped Chocolate Honies 4-Pinky
Ficms
HarleyDavidSon
Pinkys Bitches And Whips- Pinky & Thalia
Skbe                                                                                1



What-balls
and WhoSaidRomanceisDead

At the conclusion of the interview, you provided a written and signed aPfidavit in which you
stated under oath, 'I acknowledge the findings of the inappropriate material on my R: drive.
Most of the content in question have (sic) not been viewed in years. Iwill fully cooperate to
resolve this issue."
On May 19,2008,l met with you and your union representative to discuss the investigative
report and its findings. Prior to questioning, Iprovided you with a copy of the report that you
and your representative reviewed. Ispecffically asked, did you visit inappropriate websites,
view various images, photographs, and videos of a sexual nature and maintain these on
your R drive?

You responded, "Yes."
I asked if you understood that this behavior violated NSF policies regarding the personal
use of NSF's communication resources by using a NSF computer as stated in NSF Bulletin
04-11.

You responded, Yes."

When I advised you that per the OIG investigation, there were 7 video files 20 seconds to
30 minutes in length, over 350 image files and 5 power point slideshows containing photos         1
of nude women, with creation and access dates between July and November 2007 and the
majority of the files were created on 11/23/07. 1 asked you ifthis was a true statement.
You responded, 'Not created. Created is not the word. Yes, Idownloaded them. They
were downloaded on that date, but not created. Idid not create them.'

I also asked you, while you were here on 11-23-07, how much work was completed?

You stated, 'Urn, I can't remember."

Iasked ifyou were on the clock while visiting and downloading these files.

You replied, 'Urn, Ican't remember. I can look at the time card, but I can't remember."
                                                                                                   I
Based on your admittance in the interview conducted with the Office of Inspector General
and your-admittance in the interview conducted by me, Ifind that you violated the NSF
policy on Personal Use of Technology and Communication Resources. The policy sited in
relevant part.

       NSF Bulletin No. 04-11
       (Revlslon 1)
       November 3,2004
       ADMINISTRATION AND MANAGEMENT
       SUBJECT: Personal U s e Policy for NSF Technology and Communication
       Resources

       scope
       This policy applies to all NSF personnel, contractors, and visitors who have access
       to
       NSF equipment, computing services, or communication systems.
       Policy
       The technology and communication resources specified below are authorized for
       occasional personal use (excluding private business use) when the additional cost to ,
       the govemment is negligible and when the personal use is of reasonable duration        i,
       and during personal time as much as possible so there is no interference with official '
       business. NSF employees should consult with their supervisor if there is any
       question about 'occasional" use or 'negligible" costs. Any personal use of the
       agency's property is subject to the overriding expectation that employees will give
       the govemment a full day's labor for a full day's pay. Personal use should not
       compromise the security or operability of NSF systems. In addition, employees are
       responsible for ensuring that they do not convey the false impression that they are
       acting in an official capadty when they are using govemment office equipment for
       non-government purposes. This personal use policy is part of a broader range of
       policies that addresses acceptable use of agency resources. NSF employees should
       refer to these polides for additional information at
       www.insrde.nsf.gov/oirm/cio/it~security/policies.cfm.  Employees are also reminded
       the general standards of employee conduct remain in effect and are outlined in NSF
        Manual 15 (NSF Conflicts of Interest and Standards of E t t r i l Conduct). A
        supervisor or component may limit or revoke personal use of agency resources for
        any business reason.

        Internet Access and Electronic Mail Systems:                                  -
        Employees may make use of the lntemet and electronic mail for matters that are n o t '
        official business provided that the following criteria are met: (1) the use does not        /j
        resutt m an addtlansl charge to the government, (2) the use is not offensive to              I



        coworkers or the public (such as sexually explicit or otherwise inappropriate web
        sites), and (3) the use is not for illegal activities (such as gambling or the distribution
        of copyrighted materialslmedia through illegal file sharing [peer to peer] or
        otherwise).

Throughout both interviews, you claimed that the inappropriate files were sent to you by
friends, and that it was your intent to delete them. These claims do not diminish the                        I
seriousness of your actions. Downloading and storing inappropriate material, specifically
that of a sexual nature is an egregious offense. Maintaining large files on your computer
compromises the efficiency of the network, causing delays, congestion and disruption of
service. You knowingly and repeatedly saved files with inappropriate titles on government
equipment. You created a Favorite folder and saved Internet Shortcuts of websites with
dearly inappropriatetitles in that folder.

Your claim that you intended to delete the files without viewing them is simply not
believable. Your actions demonstrate that you did everything possible to preserve the
existence of these files (receiving emab from an outsiie source with inappropriate titles
and saving them in a Favorite folder you created). It would have taken less time to delete
the files upon receipt than to save them on your computer. You completed the Online        .

Annual IT Computer Security Training on August 9,2007, an Inshctor led training on
August 7,2008, and on-line on August 25,2005. In summary despite receiving IT training
on three separate occasions you still made a conscious choice to engage in computer
misuse by visiting sexually explicit sites.

I find your actions to be unacceptable. Atthough Ifeel this is a very serious matter showing
a lack of judgment on your part, I am confident that we can work together to regain the trust
between a supe~sorand an employee to perform your assigned duties without concern
that you will deviate from appropriate workplace behavior. Iam hopeful that the disciplinary
action proposed will serve to be corrective.

Based on the above, 1 believe that proposing thii ten (10) calendar day suspension is the
minimum level of discipline appropriate to this offense. I am not confident that any lesser
form of discipline would be effective.

You are warned in the strongest terms possible that any similar behavior or act of
misconduct on your part will result in more severe disciplinary action being taken against
you.

This n o t i i is.a proposal and not a final action. You have the right to reply both orally or in
writing or both and to furnish affdavits and other documentary evidence in support of the
answer. You have the right to reply within fourteen (14) calendar days. after the date you -             ,
 receive this proposal. You have the right to be represented by an attorney or other
 representative. You have the right to a reasonable amount of offScial time. You have the
 right to review the materialwhich is relied upon to support the reasons for the action given
 in the notice. A written
                    -     reply should be directed to
 %
                                         if you wish to reply orally, please contact '          1
 at 1               to arrange an appointment.
                                                                                                    I
              will carefuIty review this proposal notce, the material upon which the proposal
 is based and consider any reply made by you or your representative before making a
 written decision.. You will remain in duty status during the notice period of the proposed
 action.

 If a decision is made to effect the suspension, you have the right to file a grievance under
 the provisions of the Collective Bargaining Agreement.

 Ifyou believe a personal problem has contributed to or caused your inappropriate behavior,
 I urge you to make an appointment with an Employee Assistance Program (EAP)
 Counselor. This is a confidential program, and you may reach a counselor by calling the
 COPE at 202) 628-5100 to schedule an appointment. Recommending EAP is solely to
 advise you of the availability of assistance. Ultimately you are responsible for c o m i n g
 your conduct.

 If you have any questions regarding your rights or the procedures used in this matter, you
 may contbct '
                 -                   &n tie reached on ekension




 Iacknowtedge receipt of this document.


                     -   -

                                              -     -
yalgnarure                                                  ate
1       .       ,'
                                                                                                           TAB 2
    b
            t

                                rn   f?&ik,i Science Foundati.P1                           I




                                     4201 Wilson Boulevard, Arlington, Virginia 22230



                     Memorandum
                     To:
                     From:                                                                     6




                     Date:           August 8,2008

                     CC:

                     Re:             Notice of Decision on Proposed Suspension
                     On June 25,2008, your supervisor,                    , issued a proposal to suspend you

                     for ten (10) calendar days for Misuse of Computer. I was designated as the deciding
                     official on that proposal.

                     You were advised of your rights to representation and to reply orally andlor in writing to
                     me within 14 calendar days of your receipt of the proposal. You elected to reply orally. I
                     met with you on July 11,2008. You did not dispute the facts or charges stated in the
                     proposal to suspend.

                     I have carefdly considered the mat& of your proposed suspension and your oral
                     response to the charge including the fact that you believe the OIG's office took things out
                     of context, that the images were downloaded and not created, there was no consideration
                     that many of the images on your computer were fiuniy photos, that you believe the
                     penalty to be too harsh;that you knew of similar actions by others at NSF who received
                     nothing more than a verbal reprimand( i.e. no personnel action taken) and that the
                                                                                                                   ~
                     financial impact would greatly affect your M y . You've asked that I consider the             1
                     Douglas Factors,and I have given consideration to those as well. I have also considered
                     that no documented evidence was provided to support the allegation of non-disciplinary
                     actions for others at NSF for similar misconduct.

                     I find the charge fully supported and have decided that a ten day suspension is warranted
                     for the reasons set forth below.

                     In making this determination, I assessed the seriousness of the misconduct. You visited
                     inappropriate web sites and stored pornographic images on the R:drive of your
                     government computer. You cammitted these acts intentionally and repeatedly, despite
                     receiving training on IT security. Access dates of the files went as far back as July 2007,
                     well after your training in 2005,2006 and 2007.

                     I have considered your 15 years of service and I note that your past performance
                     appraisals have been favorable and you have received several cash incentive awards.
                     However, these factors do not offset the seriousness of your actions.

                     Your actions demonstrated a serious lack of judgment and appear to have had no effect
                                                                                                      ~
                                                                                             i
on your work performance, I I confident that you will cantinue to perform your               !

assigned duties with the same high level of performance that you have always exhibited
however; you high level of work performance does not justify or excuse your
misconduct.
                                                                                             I


Although there is no record of past disciplinary action taken against you, I believe that
the seriousness of this matter alone warrants the discipline proposed.

I have not previously encountered misconduct of the nature outlined above.

I have considered that you have taken the IT Security Training annually since 2005. You          i
were clearly on notice that your behavior was in violation of NSF policies.

I then considered whether there were any mitigating c i r c ~ c e s The. only
circumstance that I believe wananted any consideration for mitigation regarded the
serious
-       financial impact a 10-day suspension would impose.
                      I can understand that such a suspension, if it covered 10 work days,
could have an advmk             impact

I believe that a lesser penalty would be inappropriate given the nature and seriousness of
your misconduct I also do not believe that a lesser penalty would deter such conduct in
the future by other employees.
                                                                                                 'I
I have decided to uphold the penalty that was proposed, In consideration of the financial        1


impact, the suspension will be spread over a period of time using Fridays through                !
Mondays. My decision does not in anyway diminish the seriousness of your actions.
Your suspension will be effedive on Friday, August 15,2008 through Monday, August
                                                                                                 1
                                                                                                 I
18,2008. You axe not to report to work on August 15 or 18th and you will not receive             I
pay for those days. You will not report to work on Friday, August 22,2008 through                /
Monday, August 25,2008 and you will not receive pay for those days. You will not
~eportto work on August 29,2008 and September 5,2008. You will not receive pay for
either of those days. The suspension concludes on September 5,2008. You should
                                                                                                 1
                                                                                                 I
                                                                                                 I
report to work at your normal time on Monday, September 8,2008, A personnel action
reflecting the suspension will be placed on the permanent side of your Official Personnel
Folder.
                                                                                                 1!
                                                                                                 I



                                                                                                 I
Future misconduct will be dealt with severely and may result in penalty up to and
including your removal from Federal service.

If you believe that you have a personal problem that is impacting your conduct, please be
advised that the Foundation has an Employee Assistance Program (EAP) available that
might be able to provide assistance. You can contact our EAP provider, COPE, Inc., at
202-628-5 100. Please understand that you alone are ultimately responsible for your
conduct and performance.
In accordance with Article XVI of the Collective Batgaining Agreement, you may
present a grievance at any time after receipt of this decision, but not later than twenty-five
(25) calendar days after m i p t . Your grievance must begin as an informal grievance and
may be pmnted either orally or in writing.

If you believe this action was motivated in whole or in part by di-
                                                                      ..      'on because of
your race, color, religion, sex, age, national origin, physical or mental disability, or
reprisal for prior EEO activity, pursuant to 29 CFR Part 1614, you may file a complaint
about this action with the National Science Foundation Of£iceof Equal Opportunity                /1
Programs. If you decide to file a disc-on           complaint about this action, you must
bring your allegation(s) of di-tion         to the attention of an EEO counselor within .
forty-five (45) calendar days of the effective date of this action.

If you have any questions about your rights or the procedures involved in this action, you
may contact i                                                 -




CC:
